<html>
<title> - THE IRAN-SYRIA NEXUS AND ITS IMPLICATIONS FOR THE REGION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
        THE IRAN-SYRIA NEXUS AND ITS IMPLICATIONS FOR THE REGION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 31, 2013

                               __________

                           Serial No. 113-51

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
82-308                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6007100f200315131408050c104e030f0d4e">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable John Bolton, senior fellow, American Enterprise 
  Institute (former United States Permanent Representative to the 
  United Nations)................................................     6
Mr. Mark Dubowitz, executive director, Foundation for Defense of 
  Democracies....................................................    14
Daniel Brumberg, Ph.D., senior program officer, Center for 
  Conflict Management, United States Institute of Peace..........    36

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable John Bolton: Prepared statement....................     8
Mr. Mark Dubowitz: Prepared statement............................    16
Daniel Brumberg, Ph.D.: Prepared statement.......................    38

                                APPENDIX

Hearing notice...................................................    70
Hearing minutes..................................................    71


        THE IRAN-SYRIA NEXUS AND ITS IMPLICATIONS FOR THE REGION

                              ----------                              


                        WEDNESDAY, JULY 31, 2013

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
After recognizing myself and Ranking Member Deutch for 5 
minutes each for our opening statements, I will then recognize 
other members seeking recognition for 1 minute and I hope that 
you do give a statement. We will then hear from our witnesses.
    Thank you, gentlemen, for being here. And without 
objection, your prepared statements will be made a part of the 
record, and members may have 5 days to insert statements and 
questions for the record subject to the length limitations and 
the rules.
    The chair now recognizes herself for 5 minutes.
    As the conflict in Syria continues, the numbers become even 
more staggering every day: Over 100,000 killed, 1.85 million 
refugees have fled the country with over \1/2\ million going to 
our friend and ally Jordan, placing an extreme burden on our 
ally as it struggles to cope with the pressure of this mass 
influx and as the conflict threatens to cross its borders, and 
an additional 4.5 million Syrians have been internally 
displaced. Assad remains defiant and in fact his intransigence 
has become further entrenched thanks to the support from his 
allies such as Iran and Russia.
    Iran along with North Korea has been cooperating with Syria 
and the Assad families for decades now, aiding Syria with its 
nuclear and chemicals weapons program, as well as its ballistic 
missile program. Damascus is Iran's linchpin in the Middle 
East. Tehran reportedly helped finance Syria's secret nuclear 
plant, designed and built by North Korea and destroyed, 
thankfully, by the Israelis in 2007, and has also been linked 
with helping Assad expand his chemical weapons stockpile. 
According to assessments by the U.S. intelligence community, it 
judged with high confidence that chemical weapons were used by 
Assad on numerous occasions against the opposition, further 
amplifying the threat to the region and our national security 
interests.
    Tehran has provided Assad billions of dollars in direct 
funds and recently extended an additional $4 billion line of 
credit to help fund his brutal campaign against the opposition. 
Iran has sent military advisers and personnel to help Assad. 
Members of Iran's elite Revolutionary Guard have been sent to 
advise and fight along side Assad's forces as well as to help 
recruit external forces to come to the aid of the regime, 
including a large number of Iraqi Shiite militants and of 
course its proxy Hezbollah.
    The Obama administration continues to take the misguided 
approach that negotiating with Tehran will bear fruit, but the 
actions of the regime say otherwise. Due to the lack of urgency 
on this administration's part to prevent Iran from becoming 
nuclear capable, I am also concerned that it is not giving the 
Iranian threat the priority and the immediate attention it 
requires.
    Last Congress I authored and the President signed into law 
the toughest sanctions yet on record against the regime in 
Iran. Later this afternoon the House will vote on and we hope 
to pass today or tomorrow Chairman Royce's and Mr. Engel's 
Nuclear Iran Prevention Act, which will further strengthen 
sanctions against Iran and sends the Supreme Leader the message 
that a nuclear Iran is not an option.
    So it is perhaps fitting that we are here today discussing 
this subject, especially with our distinguished panel of 
experts. But as we all know, Iran along with Russia has been a 
key arms supplier for Assad's forces. There are daily flights 
from Iran to Syria filled with arms and supplies for the 
regime. These flights continue to fly over Iraq with mere 
impunity and the United States must do more to urge al-Maliki 
and the Iraqis to interdict and prevent these arms deliveries 
from reaching Syria.
    The Iran-Syria nexus has very serious consequences for our 
friend and ally, the Democratic Jewish state of Israel. The 
conflict is threatening to spread to Israel's borders and the 
fear of Assad's chemical weapons being moved and falling into 
the wrong hands is very real. Yet the Obama administration, 
prodded by some in Congress, has decided to send small arms and 
ammunition into the war zone.
    I have always been and continue to be opposed to arming any 
rebels in Syria. I remain opposed to doing so. Instead of 
sending more arms, we should be looking at ways to stop the 
arms flowing into Syria from Iran, from Russia and we should be 
looking at breaking the Iran-Syria nexus. We must keep the 
pressure and increase sanctions on Iran and Syria.
    In the wake of last month's election in Iran I must 
continue to caution the administration on offering more 
concessions to a State Sponsor of Terrorism that continues to 
undermine the stability in the region. No concessions and no 
waivers should be issued by the Obama administration until we 
see concrete and verifiable proof that Iran has begun to 
dismantle its nuclear program.
    I must reiterate that this new leader is not the moderate 
that many have been so eager to believe in Iran. It is the 
Supreme Leader who still calls the shots and his nefarious 
ambitions have not been altered.
    And with that, I am pleased to yield to the ranking member 
of our subcommittee, my colleague Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairman, for holding this 
hearing. Thanks to the witnesses for being here. Iran's 
destabilizing influence in the region, particularly in Syria, 
threatens to reshape the future of the Middle East by 
strengthening extremists by undermining moderate states and by 
fueling a dangerous arms race.
    In its current state Syria is slowly on its way to a worst 
case scenario. With the help of Iran and Hezbollah, Assad 
appears to have stabilized his grip on western portions of the 
country, ensuring continued Iranian influence at least for the 
foreseeable future. Factor in the use of chemical weapons and 
the spillover of violence in the neighboring states, and we are 
dealing with a staggering political and humanitarian crisis.
    The stats speak for themselves: In a country of 21 million 
inhabitants, nearly 8 million need humanitarian assistance, at 
least 100,000 have been killed, 4\1/2\ million internally 
displaced and 1.8 million sought refuge in Lebanon, Jordan, 
Turkey, Iraq and Egypt. A shocking average of 8,000 people flee 
Syria every day, a rate of refugee outflow unseen since the 
1994 Rwanda genocide.
    Amid all the human suffering, it is difficult to remember 
that the Syrian conflict was once a mass civic movement 
advocating for greater political freedom. Now it has morphed 
into a civil war between an externally armed insurgency and a 
brutal regime backed by Iran. Essentially, Syria has become a 
proxy war for competing regional forces like Iran. From the 
beginning Iran has provided arms, military advisers, and 
enormous financial assistance to bolster Assad. The opposition 
estimates that Iran is providing Assad with more than $500 
million a month, and is flying in about 5 tons of military 
cargo per day.
    Earlier this spring my colleagues and I sent a letter to 
Prime Minister Maliki asking him to inspect Iranian planes 
using Iraqi air space. This coupled with Secretary Kerry's 
efforts have led the Iraqi Government to inspect about a third 
of the Iranian flights. It is a good step by the Maliki 
government but we know this isn't good enough as Iran is able 
to manipulate their flight schedules to ensure that their 
weapons go to Syria unabated. Therefore, we must therefore 
continue to press the Iraqis to search all flights, to actively 
prevent weapons from flowing to Assad's forces.
    The removal of Assad would deal a devastating blow to the 
Iranian regime's ability to get heavy weaponry into Lebanon. 
From terror attacks in Europe and Latin America, Hezbollah has 
long done Iran's bidding around the world. In Syria, Hezbollah 
has openly intervened on Assad's side with more than 5,000 
fighters and is largely responsible for Assad's reclaimed 
territory in the areas around Damascus and the City of Homs. 
Simply put, Hezbollah's operations in Syria have become a game 
changer. Iranian Hezbollah intervention has spurred greater 
sectarian tension with almost daily calls from regional Sunni 
leaders for a jihad against Iran and Assad. However, we have 
seen the Gulf Coast countries react constructively with planned 
sanctions against Hezbollah. It is likely that these sanctions 
will be more potent than those imposed by the EU.
    Europe has taken an important step, but they and we can go 
further in sanctioning Hezbollah. Unfortunately, the secondary 
outcomes of this conflict are far more negative than positive. 
Lebanon and Iraq, two states with tenuous power sharing 
agreements, are seriously threatened by a spillover of 
sectarian violence. The economic burden of hosting refugees is 
threatening to destabilize Jordan. And Hezbollah's involvement 
has only furthered a frightening arms race among the region's 
extremists. For example, last month a group of hardline 
Islamists in Kuwait auctioned off cars to raise cash to arm 
12,000 Syrian rebels with guided missiles, heat seeking 
missiles, and tandem warheads. My colleagues and I are right to 
worry about how arms might end up in extremists' hands. We have 
got to face the facts, the extremists already have them, so 
what is next? We know that if the Syrian regime survives 
Hezbollah will be strengthened and Iran's interventionist 
policy will only result in more aggressive behavior. Yet 
numerous questions remain. How do we safely support any 
moderates in Syria? What, if any, change will a new President 
have on Iranian decision making in Syria? And finally, in an 
economy that is being struggled by sanctions, how do we put 
more pressure on the Iranian regime to end their support for 
Assad? What more can we do to pressure the Iranians?
    Thank you, and I look forward to hearing from the witnesses 
on these and many other questions.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch, for your 
opening statement.
    The following members have requested 1 minute statements. 
If you are not on the list, please let us know. Mr. Chabot and 
then Mr. Schneider and Mr. Kinzinger. We will start with Mr. 
Chabot of Ohio.
    Mr. Chabot. Thank you, Madam Chair. I have a markup in 
Judiciary so I will be leaving, being back and forth. So I 
apologize for that in advance.
    The terror imposed by the Syrian people by the Assad regime 
with the help of the Iranian mullahs is horrifying. Since last 
spring estimates suggest nearly 90,000 people have been killed 
and the mass exodus of refugees to neighboring nations 
continues unabated. The humanitarian crisis is getting worse by 
the day. In previous hearings over the last year or so some of 
us have expressed skepticism about the steps that the Obama 
administration was taking or not taking in Syria and concerns 
that U.S. efforts would not ultimately result in Assad's 
removal from power.
    Here we are today and the Assad regime is still thriving 
because of the supply of weapons, fighters and cash from Iran 
creating an even more dangerous environment which is 
destabilizing the entire region and threatening the security of 
nations like Israel, Jordan and Lebanon. Iran wants Assad to 
win this fight because his removal would be a decisive setback 
for its own nefarious plans in the region. Consequently the 
mullahs in Iran are doing whatever they can to ensure it 
preserves its influence no matter what happens in Syria. And I 
yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Chabot.
    Mr. Schneider.
    Mr. Schneider. Thank, you and thank you to the witnesses 
for joining us today.
    The insertion of foreign fighters, weapons and financial 
support from the Iranian Government into Syria in support of 
the Assad regime has been well documented. We know definitively 
that Iran has also worked through its proxy Hezbollah to 
further assert its influence over the current conflict in Syria 
has seen some success in swinging the momentum that once 
appeared to favor the opposition forces.
    I look forward to hearing from the panel on several related 
topics, including how prolonged Iranian influence could 
contribute to the breakup of the current Syrian state, and the 
implications for long-term U.S. interest and interests of our 
regional allies.
    I am increasingly concerned that the fighting between 
Kurdish, al Qaeda, Jabhat al-Nusra, opposition forces and other 
militias in Syria will only provide greater space for Iran to 
exert its influence over the future state of Syria, to the 
detriment of our interests and that of our allies.
    I look forward to hearing from the panel on these issues, 
and I yield back.
    Ms. Ros-Lehtinen. Thank you very much, sir.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Madam Chair. I have been very 
vocal about my concern about the lack of policy and the lack of 
focus of this administration when it comes to the Middle East.
    The situation in Syria is one that many of us were 
discussing 2 years ago, 100,000 lives ago. And I believe that 
then was the time for action to be taken at a point when you 
had a moderate opposition and we had the ability to get in 
there and ensure that Assad didn't survive.
    When I was in Iraq as a military guy, one of the worst kept 
secrets in Iraq was the role that Iran was playing in that war 
and the lives that Iran has personally cost American soldiers. 
I have been concerned at the lack of a clear red line for this 
administration when it comes to Iran's nuclear weapons, when it 
comes to Iran's support for bad people all around the globe. 
And I think it is important that this administration be very 
clear that Iran will not get nuclear weapons. And now that we 
see the joining of forces between Iran and Syria and Assad, I 
think this administration needs to be deadly clear that 
continued relationships like that will have long-term 
devastating results for the Iranian regime.
    With that, I yield back.
    Ms. Ros-Lehtinen. Thank you very much.
    Any other members seek recognition? If not, I am so pleased 
to welcome our witnesses. First, we welcome back to our 
subcommittee Ambassador John Bolton, a Foreign Policy Senior 
Fellow at the American Enterprise Institute. Ambassador Bolton 
was appointed as the Permanent Representative to the U.N. in 
2005 where he was a leading voice for--I would say the only 
leading voice, but maybe there are others, for institutional 
reform at the U.N. and also against international proliferation 
and terrorism and a strong advocate for human rights. Prior to 
this the Ambassador served as Under Secretary of State for Arms 
Control and International Security from 2001 to 2005.
    Thank you for your service and welcome back, sir.
    Next we are so pleased to welcome Mr. Mark Dubowitz, the 
Executive Director of the Foundation for Defense of 
Democracies, where he leads projects on sanctions, 
nonproliferation and countering electronic repression. Mr. 
Dubowitz is the coauthor of eight studies on economic sanctions 
against Iran and he is also the cochair of the Project on U.S. 
Middle East Nonproliferation Strategy.
    We welcome you, Mr. Dubowitz.
    Third, we welcome Dr. Daniel Brumberg, a Senior Program 
Officer with the Center for Conflict Management at the U.S. 
Institute of Peace, where he focuses on issues of democracy and 
political reform in the Middle East and the wider Islamic 
world. Dr. Brumberg is also an associate professor at 
Georgetown University, a member of the editorial board of the 
Journal of Democracy, and the chairman of the Foundation on 
Democratization and Political Change in the Middle East.
    Welcome gentlemen, and as I said, your statements have been 
made a part of the record. If you could keep your remarks to 5 
minutes, that would be good.
    Ambassador Bolton.

STATEMENT OF THE HONORABLE JOHN BOLTON, SENIOR FELLOW, AMERICAN 
     ENTERPRISE INSTITUTE (FORMER UNITED STATES PERMANENT 
             REPRESENTATIVE TO THE UNITED NATIONS)

    Ambassador Bolton. Madam Chairman, members of the 
subcommittee, I appreciate the opportunity to appear before you 
today. I thought perhaps it might be useful to look at the 
Syria-Iran nexus from the strategic perspective of the entire 
region in the Middle East because so much is going wrong, 
almost all of it adverse to American interests, from the 
disintegration of Libya after the over throw of Khadafi to the 
turmoil in Egypt, the civil war in Syria, the disintegration of 
Yemen, the political turmoil in Bahrain and other countries, 
the effective loss of representative government in Iraq, and 
obviously the ominous presence of Iran. Events in the region I 
think are closer to slipping out of control and becoming more 
adverse to the United States than in any historical period I 
can think of since the 1956 Suez Canal crisis, that period up 
until the Six-Day War in 1967.
    And yet we have at the moment in Washington and in Europe a 
return to the notion that if only you could solve or at least 
make progress in the Israel-Palestinian issue, that somehow 
everything else would be easier to resolve. And yet if you look 
at each and every one of the crises gripping the region that I 
mention, all of them taken together have almost nothing 
whatever to do with the Israel-Palestinian issue. And if 
tomorrow we learn that the negotiators had resolved the Israel-
Palestinian issue, that would have almost no consequence 
whatever for the ongoing threats to stability in the region and 
American interests.
    So given that there are only 24 hours a day and given that 
everybody has to prioritize, I think from the perspective of 
protecting American national interests we have to ask ourselves 
what are the key priorities, what are the main threats to our 
interest in strategic stability in the region? And while they 
are not responsible for everything that is going wrong, it 
seems to me that all of the major problems we face stem from 
Iran, from its pursuit of geographic and political hegemony, 
the arc of influence it has created from Iran itself through 
the al-Maliki regime in Iraq, the Assad regime in Syria and 
terrorist Hezbollah in Lebanon. One element is Iran's 
continuing support for terrorism, Hezbollah now, as before 
Hamas in the Gaza Strip, Iran for decades has been the world 
central banker of terrorism supplying arms and other assistance 
as well. And then the third major threat obviously is Iran's 
nuclear weapons program, 20 years in the search for deliverable 
nuclear weapons capability.
    Virtually all of Iran's objectives are being pursued 
without an effective response from the United States. The 
sanctions that we have pursued have in the words of the 
Director General of the International Atomic Energy Agency, 
Yukiya Amano, just a month ago, effectively had no consequence 
on the Iranian program. Personally I think the sanctions are a 
good idea because they put pressure on the regime and our 
ultimate objective should be bringing the regime in Tehran 
down. But nobody should be under any illusions that Iran is 
determined enough to have nuclear weapons and the sanctions 
won't deter it.
    It is also no surprise that Iranian Revolutionary Guard 
officers and others and now Hezbollah have come into the 
conflict in Syria. Iran was always prepared to shed a lot of 
Syrian blood to keep the Assad regime in power, and it will 
continue to do that because the influence it has over Syria 
fits all three of its objectives, including, I believe, more 
that we will find out in the area of nuclear, biological and 
chemical warfare. The Al-Khobar reactor destroyed by the 
Israeli Air Force in September 2007 didn't get there 
accidentally and there may well be other aspects of Iranian 
influence.
    And I think it is critical for Iran to maintain the 
viability of Hezbollah as a threat to Israel. Indeed, if Israel 
makes the critical decision that it is now facing whether to 
take preemptive military action against the Iranian nuclear 
weapons program, the third time in its history that Israel will 
have done so in its own self defense, I think the most likely 
Iranian response will be to unleash Hezbollah and Hamas to 
rocket targets inside Israel, which simply makes this question 
that much more difficult for Israel.
    And yet in response to all this, the American policy is not 
just ineffective, it is very sadly lacking. I think we are in 
for much greater danger in the coming years.
    Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Ambassador.
    [The prepared statement of Ambassador Bolton follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Mr. Dubowitz.

STATEMENT OF MR. MARK DUBOWITZ, EXECUTIVE DIRECTOR, FOUNDATION 
                   FOR DEFENSE OF DEMOCRACIES

    Mr. Dubowitz. Chairman Ros-Lehtinen, Ranking Member Deutch, 
distinguished members of the subcommittee, thank you for 
inviting me to testify and for having this hearing on the Iran-
Syria nexus.
    The more we talk about Iran's machinations in Syria as a 
window into the soul of the Iranian regime the better. The 
Iranian regime does not want the world to talk about its 
involvement in the massacre of tens of thousands of Syrians. As 
we are only 4 days away from the inauguration of Iranian 
President-elect Hassan Rouhani, I will focus on the 
consequences of his election for Iran's role in Syria and the 
appropriate U.S. policy response.
    Election victory of Mr. Rouhani has revived a myth as old 
as that of the revolutionary theocracy itself, the myth of 
moderation. Were Mr. Rouhani a truly different kind of Iranian 
leader, he would insist that Iran and its terrorist subsidiary 
Hezbollah stop assisting the Assad regime to murder Syrians, he 
would end the repression of Iranians and fully comply with 
Iran's nuclear obligations under international law. This 
optimism, however, may not be warranted. And indeed if his 
moderation is only aspirational on our part, Washington could 
easily allow Iran to solidify its grip on Syria and develop an 
irreversible nuclear capability. I would argue that it would be 
naive to expect a significant shift in the foreign and security 
policies of the Islamic republic.
    To summarize the conclusions of my written testimony: 
Number one, maintaining significant Iranian influence in Syria 
and expanding its nuclear weapons program are both strategic 
priorities for Tehran. In both cases Iran is successfully 
testing the red lines of the United States and the 
international community.
    Number two, Iran's Supreme Leader handles Syria policy with 
operational control in the hands of Major General Qassem 
Suleimani, the Revolutionary Guard's Quds Force commander. Most 
Iranian Presidents, including Rouhani, have little say over 
Tehran's foreign and national security policies. The exception 
was former President Rafsanjani during his first term when Ali 
Khameni was still consolidating his position as the Supreme 
Leader.
    During the duration of the Syrian war, Mr. Rouhani has been 
the personal representative of the Supreme Leader to the 
Supreme National Security Council. In this role, if Mr. Rouhani 
has had any influence on the regime's Syria policy then he has 
been complicit in the slaughter of tens of thousands of 
Syrians.
    Even if he has influence, Mr. Rouhani's public statements 
reveal that his conspiratorial anti-American and anti-Israel 
positions on Syria are closely aligned with Iran's Supreme 
Leader and the IRGC. His few statements against so-called 
extremism, terrorism and foreign interference reflect Assad's 
position, which is to label the entire uprising against his 
rule as terrorism and not a genuine popular uprising.
    Unlike on the issue of Syria, Mr. Rouhani has been publicly 
critical of how his predecessors have conducted nuclear 
negotiations. His record, however, reveals that he has been a 
practitioner of nuclear deceit and suggests that he cannot be 
trusted on the Syria file either.
    Finally, if Mr. Rouhani wants to prove himself an 
influential and reliable interlocutor, he must end Iran's 
nefarious military and financial activities in Syria. But let's 
be clear, stopping the massacre of Syrian, Muslim and Christian 
women and children should not be rewarded with concessions, it 
should be the definition of moderation.
    U.S. policy should be designed to treat Iran-Syria nuclear 
policies in the same way that Tehran views them, as two sides 
of the same coin, and essential strategic elements of Iran's 
dry for regional hegemony. Washington must respond to tangible 
action, not political rhetoric, and be cautious of 
opportunities for Rouhani to engage in strategic deceit at the 
proposed Geneva II conference on Syria and at the next round of 
diplomatic talks of the P5+1.
    U.S. policy should be designed to accomplish the following 
five objectives: Number one, resist diplomatic linkage between 
Iran's nuclear program in Syria. Linkage will only give Tehran 
more concessions with which to trade and undercut our 
negotiating leverage over Iran's nuclear program.
    Number two, massively intensify sanctions pressure on Iran. 
Right now is exactly the wrong time to be offering meaningful 
sanctions relief.
    Number three, enhance the credibility of military force. 
Targeted U.S. strikes against Iranian backed assets in Syria 
similar to what Israel has reportedly undertaken or through 
carefully vetted U.S. proxies will enhance Washington's 
negotiating leverage on both the Syrian and nuclear tracks.
    Number four, avoid a negotiated settlement that allows Iran 
to retain a critical capability, either in the form of an 
Iranian backed Alawistan when industrial sized nuclear capacity 
of undetectable breakout.
    And finally, number five, resist the political pressure to 
sweeten the deal on the assumption that this will strengthen 
Mr. Rouhani's moderate position in the Iranian political 
structure.
    We should not be negotiating with ourselves. Put the onus 
on Mr. Rouhani to demonstrate his influence in moderation. Only 
when Washington has reversed Iranian strategic gains on Syria 
and its nuclear program can there be any negotiated settlement 
that protects the security interest of the United States and 
its Middle Eastern allies.
    Ms. Ros-Lehtinen. Thank you very much, sir.
    [The prepared statement of Mr. Dubowitz follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Dr. Brumberg.

 STATEMENT OF DANIEL BRUMBERG, PH.D., SENIOR PROGRAM OFFICER, 
  CENTER FOR CONFLICT MANAGEMENT, UNITED STATES INSTITUTE OF 
                             PEACE

    Mr. Brumberg. Thank you very much. Good afternoon, Ranking 
Member Deutch and other members.
    Mr. Deutch. Turn on your mic.
    Mr. Brumberg. So sorry, I am going to start again. Good 
afternoon, Chairman Ros-Lehtinen, Ranking Member Deutch and 
other members of this subcommittee. I am honored to have this 
opportunity to testify today before the House Foreign Affairs 
Subcommittee on the Middle East and North Africa.
    Today I would like to place the question of Iran's 
relations with Syria and Lebanon's Hezbollah in a wider 
framework. Indeed, the question I will address is how the June 
14th election of Hassan Rouhani to the presidency might shape 
Iranian foreign policy or aspects of it. I should emphasize 
that the views expressed in this testimony represent my own 
assessment and do not reflect the positions of the United 
States Institute of Peace, which does not take policy 
positions.
    Both before and after his election Rouhani stated that he 
and his new government would strive to regain the trust of 
citizens at home and to rebuild Iran's frayed relations abroad. 
By ``reform'' Rouhani seems to mean opening space for the 
return of those political leaders and groups that were 
previously excluded from politics and ensuring that these 
groups and the wider populace of some basic civil rights. But 
he also argues that pursuing these domestic goals requires 
diminishing international conflicts that former President 
Ahmadinejad and his hard line allies used to justify repressing 
the reformists. Rouhani and his allies appear to believe that 
reducing international tensions will facilitate a reopening of 
the domestic political arena.
    The chances of Rouhani achieving limited success in the 
domestic front are not bad. If only because a wide spectrum of 
groups, including some in the so-called principalist camp that 
had supported the former President, now argue that reviving the 
economy and regaining the people's trust are vital to reviving 
the Islamic Republic's battered legitimacy.
    But on the international front, moving from confrontation 
with the West to real cooperation will face significant 
obstacles. Those obstacles include ultra hard liners who are 
loath to see the reformists use success on the international 
stage to strengthen their popularity at home.
    Given the influence of these hard liners, Rouhani and his 
allies are unlikely to depart from the national consensus 
regarding national security issues. Thus he will not risk 
provoking retaliation from hard liners and certainly the 
Supreme Leader by advocating a fundamental change in Iran's 
approach to Syria or Hezbollah. But even as he pays close 
attention to these red lines, Rouhani will probably continue 
looking for opportunities to promote a more flexible foreign 
policy, one that might ease the political situation at home.
    My bottom line is this: While the U.S. should be cautious 
we should not dismiss such efforts out of hand or take actions 
that inadvertently reinforce opponents of the political 
opening. We should instead test Rouhani and his government, 
pushing I believe for a Palestinian-Israeli deal I still think 
is important and pursuing negotiations on comprehensive nuclear 
agreement might offer two tests. How Rouhani and his new 
government might respond to such tests is unclear. The fact 
that he has nominated former Iranian U.N. Ambassador Javad 
Zarif to be Foreign Minister and he has nominated impressive 
technocrats to take charge of economic policy are both fairly 
encouraging signs.
    Now these developments reflect long-term social and 
political dynamics. Indeed reformists and moderate leaders from 
the principalist camp itself have been trying to seek an 
alliance as far back as 1999. Among other reasons they sought 
this alliance in a bid to repair the economic damage to Iran 
that resulted from the previous policies of Ahmadinejad. 
Rouhani and his allies have stated that advancing these 
economic reform agendas will require a new engagement with the 
West and quite possibly with the U.S.
    One key objective in pursuing engagement will be to remove 
international sanctions, but division in an agenda that Rouhani 
favors is larger than that. To reiterate, Rouhani and his 
allies see success at the home front as depending partly on 
success abroad. Rouhani's previous role as chief negotiator on 
the nuclear issue gives him some credibility, certainly at 
home. Moreover, the fact that Rouhani and his allies hold that 
moving or mitigating international sanctions is crucial to 
advancing their domestic agenda suggests an opening for U.S. 
diplomacy.
    The U.S. wants to make progress on crucial security issues, 
particularly the nuclear question, but it also is important to 
encourage realistic changes for a reopening of Iran's political 
arena. After years of repression Iran's reformist leaders and 
the wider electorate which elected Rouhani gave praise to such 
domestic change. But they also know that the struggle for 
change will take years and will only come through making 
accommodations at home.
    It is in the interest of the U.S. to find ways to make the 
task of long-term political change possible in Iran while 
addressing our fundamental security interests.
    Thank you.
    Ms. Ros-Lehtinen. Thank you very much, Dr. Brumberg.
    [The prepared statement of Mr. Brumberg follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. I will ask questions about seeing Rouhani 
as a moderate, Russia's role in Syria and what will Iraq do.
    Ambassador Bolton, you said that those who had been 
labeling Rouhani as a moderate are naive in their assessment. 
And Mr. Dubowitz, you agree that Rouhani isn't the moderate 
that the world is so eager to say he is, yet the administration 
has been willing to accept a narrative of him as a moderate and 
has even begun to offer concessions on sanctions against the 
regime ahead of its next failed round of P5+1 negotiations. And 
just this morning the Institute on Science and International 
Security assessed that Iran is expected to achieve the critical 
capability needed to produce weapons grade uranium by mid-2014 
without being detected.
    So as Iran continues to support Assad by reportedly 
agreeing to supply Assad with $3.6 billion in oil in exchange 
for the regime to have the right to investments of various 
kinds in Syria, I think it is wise to be reminded that in the 
past this so-called moderate has boasted of his ability to 
deceive, as you pointed out, and mislead the international 
community on Iran's nuclear program when he served as the chief 
negotiator, and he continues to support the brutality of Assad.
    Given what we know about Rouhani and these latest reports, 
why would the United States risk our national security and the 
security of the region by offering concessions to the regime 
when it is clear that there will be no change in Iran's nuclear 
position and its role on Syria? And will the administration--do 
you believe--now allow Iran to use Syria as a bargaining chip 
for its nuclear program? That is what I see in the horizon.
    Now Russia, along with Iran and China, has been flooding 
Syria with arms for the Assad regime, has had a key strategic 
interest in selling arms to Assad, having access to all of that 
region through the Syrian naval base. Moscow has moved to 
stonewall U.S. efforts in calling for Assad to step down, and 
continues to obstruct our sanctions against Syria and Iran. It 
has got this veto power at the Security Council. So it is clear 
the administration's reset policy with Russia has not resulted 
in any progress whatsoever; it has actually weakened our 
position relative to Moscow. So given this, in light of this 
and Russia's continued cooperation with Assad and with Iran, 
what steps should the United States take regarding our policy 
toward Russia?
    And on Iraq, we have been saying that we have called on 
Iraq to act, and stop, and inspect the planes that are 
routinely flying militants and militia to fight along Assad, 
but in only a few cases has Iraq actually done this inspection. 
And in addition, the Iraqi Government continues to ignore our 
request to honor its commitment to protect the people of Camp 
Liberty through its Memo of Understanding of 2011 and continues 
to put their lives in danger. Does the U.S. have any leverage 
with Iraq to force it to act on any of these issues?
    Ambassador Bolton.
    Ambassador Bolton. On the first point, Madam Chairman, on 
Rouhani as a moderate. I mean, I think his career demonstrates 
he has been a man of the regime for 30-plus years. He wouldn't 
have been allowed to run for President unless it was clear he 
would hue to the policies, particularly in the nuclear area, of 
the Supreme Leader and the Revolutionary Guard.
    I have watched him in action very closely during the period 
of 2003-2005 when he was Iran's nuclear negotiator. And he was 
very smooth, charming, Western European diplomats just loved to 
deal with him, and he took them to the cleaners day after day 
after day negotiating a supposed suspension of Iran's 
enrichment program that was suspended because of the failures 
of the program itself, difficulties in the uranium enrichment 
process and even more importantly difficulties in the uranium 
conversion process that allowed Iran during this period of good 
will to fix the problems, then break the suspension and return 
to its nuclear weapons program.
    So I think he has shown he knows how to do it once before 
and have no doubt he would like to do it again. Would he like 
to see----
    Ms. Ros-Lehtinen. Let me turn to Mr. Dubowitz for Russia's 
role or Iraq's role.
    Mr. Dubowitz. Let me talk a little bit about this question 
of his record. Let's remember that he was nuclear negotiator 
and/or the Secretary of Supreme National Security Council when 
Iran did not voluntarily or transparently disclose Natanz, 
Fordo, or Isfahan.
    On the issue of sanctions, I support massively intensified 
sanctions on Iran to bring it to the verge of economic 
collapse. I think it is the only way to put the Supreme Leader 
to a fundamental choice. But I think the sanctions relief that 
I am most concerned about are not the humanitarian sanctions 
that Treasury clarified last week. It was a statement of 
clarification, they were not new sanctions, but the fact that 
there have been sanctions on the books that have not enforced 
like the gold sanctions that have given Iran up to $7 billion 
in just under a year of vital foreign exchange reserves. And 
the unwillingness to entertain new sanctions, it is the non-
enforcement of existing sanctions which is sanctions relief. We 
are already giving Iran sanctions relief and we are getting no 
nuclear concessions in return.
    And finally, on the issue of linkage, I think the issue of 
linkage is very important, Madam Chairman. And that is that the 
Iranians will try to expand the negotiations to include Syria 
and their other interests so that they can trade concessions. 
And we have to be very careful not to link the Syria issue with 
Iran's nuclear program.
    On Russia and Iraq they are both sanctions busters. We are 
not enforcing sanctions against either country and they are 
both in violation of our financial and energy sanctions.
    Ms. Ros-Lehtinen. Thank you very much. Thank you, 
gentlemen. My time is over.
    Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairman. Mark, I just wanted 
to follow up with Mr. Dubowitz with where you left off. What is 
it, and I throw this up to all three of you, what is it that 
needs to happen for sanctions to have the best chance of 
working? We are going to pass legislation this afternoon that 
will only strengthen the sanctions. We can give you, all of us 
sitting here can give you the statistics about the successes 
that the sanctions have yielded in terms of really tightening 
the economy in Iran. And yet the numbers, the statistics about 
what Iran is doing in Syria, the amount of money, the amount of 
supplies are staggering. How is that happening, first of all, 
given where their economy stands? Is there any issue of public 
pressure that may help with Iran's involvement in Syria? We 
know the Iranian people are frustrated with the state of their 
economy. It was an issue for Rouhani in the election. Are they 
aware of the extent of Iranian involvement in Syria and the 
cost ultimately to them? So that is the second question. The 
first question though is sanctions generally, what more can be 
done?
    Mr. Dubowitz. So I agree with Ambassador Bolton that 
sanctions are not going to be a silver bullet. There is no 
evidence that they have slowed Iran's nuclear program. But I 
think that we can fundamentally change the calculus of this 
regime by massively intensifying the sanctions and increasing 
the credibility of the military threat.
    With respect to sanctions the only number that I think 
matters is the size of Iran's accessible foreign exchange 
reserves, because that is their principal hedge against a 
balance of payments crisis and economic meltdown. If we don't 
know that number then we don't know when they economically drop 
dead. And we have no way of comparing that number to David 
Albright's number, which is Iran's obtainment of undetectable 
nuclear breakout by June 2014. We have to know which comes 
first. And I think by going after the foreign exchange 
reserves, denying them access to overseas accounts, going after 
their oil export revenue, their commercial trade, we have to 
get Iran closer and closer to the brink of economic collapse 
but we need to know that number. And if we don't know that 
number, we don't know where we are at.
    Mr. Deutch. Dr. Brumberg.
    Mr. Brumberg. Well, I will have to disagree with my 
distinguished colleague. I think that the dependence on 
sanctions is a flight from reality. The notion that by 
increasing sanctions we are going to compel Iran to do 
something it doesn't want to do is simply a substitute for a 
strategic policy. It is not a policy, it is easy to agree on, 
it is easy to get consensus on, but it is not an effective 
policy. It hasn't worked so far. I see no evidence that if you 
put a gun to the heads of the Iranian leadership they are going 
to say we will do what you want us to do. It hasn't been 
successful. And when something doesn't work you don't keep 
repeating it. That is not a policy.
    Now sanctions, there are two ways we can think about 
sanctions. Sanctions are always a means for some sort of end. 
Sanctions can be a means of a war policy. From the vantage 
point of Iran and if the Iranian leaders were listening to the 
presentations today, they would say well, clearly the point of 
view, and our colleagues have basically said this, the point of 
view of sanctions is regime change. Now if that is your 
message, then that is your message. Then of course if you want 
to make war you make war. But if sanctions is an adjunct for 
negotiations and is a bargaining chip, then you have to be 
ready at some point or other to conceive of a deal in which you 
are going to remove sanctions, because sanctions are there in 
order to compel your adversary to make peace, and that means a 
dual track approach.
    So I am not saying that one or the other is best. I think 
we have to decide what we want to do. And ultimately if we want 
to go to war, we go to war. Because this is what has been 
advocated here today in effect. But if we don't, we have to 
recognize that concessions will come down the way. And at some 
point or another we will deal with this regime because it is 
not collapsing today or tomorrow.
    Mr. Deutch. Ambassador Bolton, a lot of us sitting up here 
believe that sanctions haven't yet caused the Supreme Leader to 
change his commitment to nuclear weapons because they have not 
been strong enough, right, isn't that the alternate argument?
    Ambassador Bolton. Well, that is the theory. I actually 
agree with Dr. Brumberg up until the point when he started 
talking about going to war. The sanctions are not working and 
they are not going to work. There is a theoretical case that 
economic sanctions can work with three conditions, that they 
are utterly comprehensive, everything is covered, number one. 
Number two, that they are complied with by every major power in 
the world, and three, that they are enforced by military force. 
None of those three things apply to Iran nor will they ever. 
The nuclear weapons program is not expensive enough for the 
sanctions to have an effect on and the proof of the pudding is 
Korea. North Korea, the most heavily economically sanctioned 
country in the world, has detonated three nuclear devices.
    Mr. Deutch. Madam Chairman, may I ask for 30 seconds for 
Mr. Dubowitz to respond to the suggestion that North Korea is 
an example here. You have spoken to the need for strengthening 
sanctions. You have spoken to the opportunities that we have to 
further tighten the economic noose so that the Supreme Leader 
changes his ways.
    Can you speak to ultimately the potential effectiveness of 
that that your two colleagues on the panel seem to argue 
against?
    Mr. Dubowitz. Well, there is no doubt that sanctions will 
not work on their own. We have all stated that. But I think 
that it is actually wrong to say that sanctions can't put 
enormous pressure that we can convert into negotiating leverage 
at the table. If Iran only has $20 billion of accessible 
foreign exchange reserves and those reserves are being depleted 
rapidly, Iran is facing economic collapse. Now if economic 
collapse cannot break the nuclear will of Mr. Khamenei, nothing 
will and there will be no nuclear deal with no concessions that 
Mr. Brumberg would at all entertain. On the other hand, we need 
to try. And I think that we don't need military force to 
enforce sanctions. We need to massively ratchet up the current 
sanctions regime, which is putting enormous economic pressure 
on the regime and get those FX reserves down to a level where 
the Supreme Leader does not have the money to support economy.
    Mr. Rouhani was elected because the Iranian people are sick 
of the sanctions, they are sick of the economic pressure and 
they are sick of the nuclear intransigence that Mr. Khamenei 
has shown.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Madam Chair, and again to the 
witnesses, thank you for being here. I will take just a very 
slight issue with what Dr. Brumberg said. I think actually it 
is not necessarily that we are advocating for war, I frankly 
think Iran has been at war with the United States for a very 
long time. I mentioned in my opening statement I am a veteran 
of Iraq, I flew planes, and if I could say in this setting, 
which I can't, I don't think, but I will say that a lot of 
energy was focused on Iran basically being involved in the war 
in Iraq and in some cases some have suggested that almost half 
the U.S. casualties were the direct result of Iranian 
technology and Iranian action.
    And I just want to say too at the outset, I am not critical 
of this administration because I am a Republican, I am not 
critical of this administration because there is any partisan 
politics involved. If this were a Republican administration 
with the same policy, I would be saying the exact same thing. 
But I am a believer that when the leadership around the globe 
retreats something has to follow. And if there is no other 
leader that is stepping up or able to step up, which in this 
case there isn't, when the United States retreats from 
engagement from around the world I think chaos follows. And I 
think that is what we are seeing in the Middle East as a result 
of frankly a lack of American engagement.
    I will give you some examples on that. We look at Egypt, 
the day--and I want to ask this question, but I want a second--
the day there was this change in Egypt our administration was 
not really focused on going out and stressing support for the 
Egyptian people, stressing support for their change into a 
democracy. I look at the example of Benghazi and what happened 
there. I look at the status of forces agreement in Iraq and 
basically the ease to give up there and the quickness at which 
we walked away from the negotiating table. And today you look 
at Iraq and it is basically in chaos again, which to me 
personally is very disturbing.
    And you look at the administration floating the idea, even 
if they don't follow it, floating the idea of a zero troop 
option in Afghanistan after 2014, that does nothing but 
embolden our enemy. That does nothing but embolden the forces 
that would fight against the United States. We have been 
fighting these proxy wars against Iran, against terrorists for 
a very, very long time. And this is from somebody, by the way, 
one of six Republicans that voted to give the President 
authority to go into Libya because I believed that was the 
right thing to do.
    But a couple of big questions. First off, I want to ask 
you, Ambassador Bolton, specifically about the--and I know this 
is an exactly on topic, but the message sent the day that 
change happened in Egypt. What do you think the Egyptian people 
saw in the United States' kind of lack of engagement on that 
transition?
    Ambassador Bolton. Well, I think they see an incoherence in 
dealing with events in Egypt that has unfortunately 
characterized the response to the entire Arab Spring. If you go 
back to Mubarak's fall, I counted in the 31-day period from the 
time demonstrations began in Egypt to the time Mubarak stepped 
aside that the administration had four distinct positions. And 
the net of that, and I think essentially we saw a repetition 
when the demonstrators went into the streets in late June and 
early July, and the military finally stepped in on July 3rd. 
The result is nobody knows where we stand. We don't gain points 
with any of the various competing factions or persuasions in 
the struggle. And overall we are left impotent as the situation 
deteriorates. And I think the debate we are having now over 
continued foreign assistance unfortunately helped show that. 
And I think the signal that it sounds throughout the region 
combined with an absence now of having done anything effective 
since September the 11th in Benghazi is that America is 
uninterested, that we are declining in our ability to shape 
events in the region. And I think that is something that our 
adversaries and our friends alike both see and they are 
calibrating their policies accordingly, unfortunately, for our 
interest.
    Mr. Kinzinger. Thank you. I will ask each of you if you can 
answer with basically just one quick answer, what is more 
important to Iran a healthy economy or nuclear weapons? I'll 
start with you, Dr. Brumberg.
    Mr. Brumberg. Well to the forces----
    Mr. Kinzinger. Just very quickly.
    Mr. Brumberg. When you say Iran I am not sure what you 
mean, but if you are talking about the forces.
    Mr. Kinzinger. The regime.
    Mr. Brumberg. Nuclear weapons. I think that Iran is much 
more than a regime and I have to say this because this is not 
the conversation we are having. There was a force that brought 
Iran to power. This is the force of the electorate. They want 
economic and political change.
    Mr. Kinzinger. Well, that is great and we have been talking 
about that for 20 years, the fact the regime is in charge and 
the regime is the one chasing nuclear weapons. Dr. Brumberg.
    Mr. Brumberg. Well, we may have some disagreement on that.
    Mr. Kinzinger. Would you say healthy economy or nukes?
    Mr. Dubowitz. Regime survival. And if they think that a 
nuclear weapon can guarantee the survival of the regime they 
will pursue it. If they think that there is a fundamental 
choice between a nuclear weapon and the survival of the regime, 
we may have a chance of breaking their nuclear will. But we 
need enhanced leverage, we can't be naive, this isn't the 
Harvard Negotiation Project.
    Mr. Kinzinger. Mr. Ambassador.
    Ambassador Bolton. They want nuclear weapons and I would 
say please don't believe the official economic statistics. 
These are expert smugglers with--the largest Iranian diplomatic 
facility in the world is in Caracas, Venezuela. Because of 
their close cultural ties? No, because they are laundering 
their money through the Venezuelan banks.
    Mr. Kinzinger. Thank you. I have a million more questions 
but my time is up.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Schneider.
    Mr. Schneider. Thank you, Madam Chair, and thank you to the 
witnesses. I would like to pick up essentially where we left 
off. But as you talked about, Mr. Dubowitz, the desire of the 
Iranian regime is survival and we saw in the recent election 
what to them appears to have been a surprise outcome with the 
election of Rouhani. How much impact, and this is everyone, do 
you believe the economic struggles of the Iranian people having 
influence on the outcome of the election if at all?
    Mr. Dubowitz. Well, thank you for the question. I think the 
Supreme Leader doesn't fear the United States, he doesn't fear 
Israel. He fears his own people. He knows what he has done to 
his own people. He has brutalized them, he knows the sense of 
despair. And I think he was shocked by the election results. I 
mean he was shocked that his preferred candidate, Said Jalili, 
lost and that Rouhani won, not because it was a pro-Rouhani 
vote but it was because it was an anti-Khamenei vote. And the 
vote was based on a sense of despair and depression and 
frustration with the nuclear intransigence that has led to the 
economic demise of a proud nation that otherwise should be 
powerful and rich and influential. And so for that reason I do 
think these sanctions are working, not in slowing down Iran's 
nuclear program, because that is clearly not happening, but in 
embittering the Iranian people not against the United States 
but against the Supreme Leader, the Revolutionary Guard and a 
regime that has held them hostage for 30 years.
    Again, these sanctions can give us leverage. That is all 
they can give us is leverage, and how we use that leverage 
remains to be seen.
    Mr. Schneider. Dr. Brumberg, you are nodding your head.
    Mr. Brumberg. Well, I agree with that. Sanctions will get 
Iranian leadership to the table. What you decide to do at the 
table is the question. Whether you want to negotiate on the 
kinds of concessions that you ultimately want to provide, 
including on the sanctions relief, that is the debate we need 
to have. What kind of relationship do we ultimately want with 
the Islamic Republic around? Assuming that we are not 
advocating regime change. If we want to find some way to live 
with this regime, which in many respects has ben a repugnant 
regime. That is a conversation I think we often avoid, the 
strategic conversation we need to have.
    I also want to say on this issue of Rouhani and whether he 
is a moderate and we have these debates that go on forever. 
Rouhani is not really the story here. The story is the 
political social forces that brought him into power that have 
been struggling to be heard and they count in the Islamic 
Republic system. I have been studying the system for years. It 
is not simply the Supreme Leader. And the office of the 
President, which everybody predicted would be abolished is not 
going to be abolished. There will be parliamentary elections in 
2 years. The one thing the reformists desperately want is a 
peace process between the U.S. and Iran to create the space 
that they need for the long-term struggle for human rights in 
that country. Now we have to decide whether we take that 
struggle seriously. Do we want to help to foster it, because 
short of regime change the change in Iran will happen through 
not against us.
    Mr. Schneider. In a sense of time, I only have 2 minutes 
left. Out of this committee and going to the floor today or 
tomorrow is a bill that strengthens the sanctions regime, that 
hopefully gives us that leverage to try to force the hand and 
change the course away from progress toward a nuclear 
capability, and it seems what I am hearing is that those 
sanctions have had an effect on the economy, and the effect on 
the economy has had an effect on the politics on the Iran. And 
so it seems to me that we should be pursuing more sanctions or 
stronger sanctions.
    Am I missing something?
    Mr. Brumberg. I think the sanctions have had an effect on 
the politics, there is no doubt about it, but alone the 
sanctions will not compel the Iranians to do what we think they 
should do. They will not do it by themselves. We have to sit 
down and negotiate and decide ultimately whether we are going 
to be living with sanctions forever or real incentives in 
return for a deal that we and the Iranians can accept. That is 
the conversation I don't think we are having.
    Mr. Schneider. Sanctions are a means to an end. Sanctions 
aren't the goal----
    Mr. Brumberg. Yes.
    Mr. Schneider. Preventing Iran from having a nuclear weapon 
is the goal.
    Mr. Dubowitz.
    Mr. Dubowitz. Well, there is a lot of talk in Washington 
about sweetening the offer and that we are not being generous 
enough to the Iranian regime. There is an offer on the table, 
it was presented at al-Mahdi. It is a very good offer despite 
the fact that administration officials go on background as 
describing the sanctions relief as modest. The offer says gold 
sanctions and petro sanctions, chemical sanctions relief worth 
tens of billions of dollars, 20 percent, and the suspension of 
20 percent enrichment. That is increasingly an irrelevant 
nuclear concession if you believe David Albright and nuclear 
experts who say we are moving to undetectable nuclear breakout. 
So there is an offer on the table. Let Rouhani respond to it 
before we talk about sweetening that offer or offering generous 
sanctions relief. We should be enhancing our negotiating 
leverage not diminishing it before we show up for the 
negotiations.
    Mr. Schneider. And my time is up as well. I have many more 
questions. But again, thank you for your time.
    Ms. Ros-Lehtinen. Thank you very much, sir. Mr. Weber of 
Texas.
    Mr. Weber. Thank you, Madam Chair. I am going to follow up 
on that. Winston Churchill, Mr. Dubowitz, said, an appeaser is 
someone who feeds the crocodiles his friends one at a time, 
hoping it will eat him last. Is that what is going on here? We 
are simply trying to appease them in the sanctions process and 
they are going to get the nuclear weapons? That is your best 
opinion?
    Mr. Dubowitz. You know, I don't like to use the word 
``appeasement'' because I think that everybody who has engaged 
in this has the best of intentions and is trying to figure out 
how to deal with a very complicated diplomatic issue. I do 
think that we tend to take a very Western approach to this. You 
know, we are all trained in sort of negotiating tactics that we 
want to have a good relationship, we want to expand the 
community of interests, we want to look for different options, 
we want to find a deal. The fact of the matter is we are 
negotiating against hardened negotiators who employ 
brinksmanship.
    Mr. Weber. One who has already misled the United States and 
boasted about it.
    Mr. Dubowitz. They have absolutely done so. So this 
Rouhaniphoria that has followed the election of Mr. Rouhani I 
think has to be treated with a high degree of skepticism, not 
because only of his track record, but the track record of the 
Supreme Leader and the fact that these are men who understand 
the nuclear file and have forgotten tricks we haven't even 
learned.
    Mr. Weber. All right. Let me move from that to one of my 
colleagues, Mr. Deutch, down on the other side of the podium 
here said that they were, I believe, sending Iran $500 million 
a month into Syria and 500 tons of cargo a day, if I remember 
him correctly. Were you all aware of that? And you think that 
is pretty accurate? Based on $500 million a month, now you 
talked about their surplus I think, how long can they do that?
    Mr. Dubowitz. Well, I think that is the essential question. 
I mean, if we know what the size of their accessible foreign 
exchange reserves are and we know how much money they have got 
in the bank, then we have a pretty good sense of how long they 
can do that.
    Mr. Weber. So do the math. How long is it?
    Mr. Dubowitz. Well, you know, that is the question you need 
to ask the administration in a classified setting.
    Mr. Weber. Let me move over to Ambassador Bolton.
    Ambassador Bolton. I don't think we know what Iran's 
foreign exchange reserves are. I don't think they have been 
honest over the past decade in declaring what their reserves 
are and where they are. I don't think they are being honest 
today about their oil exports. I don't think they are recording 
as official exports the oil they are trucking through Kurdistan 
into Turkey. I don't think we are calculating the oil they are 
shipping through Iraq as Iraqi oil.
    Mr. Weber. In other words, you think they would 
purposefully mislead us.
    Ambassador Bolton. I know it is shocking.
    Mr. Weber. Golly. Let me move on.
    Ambassador Bolton. That is the way it goes.
    Mr. Weber. Let me move on. So you say if the Israelis have 
that air strike, if they issue that strike, that Iran will most 
assuredly will retaliate. And I think you said by unleashing 
Hezbollah into just an unbelievable rocket barrage. Of course 
we have the Iron Dome in place. Any idea of what kind of 
sustained barrage and how long that would go on?
    Ambassador Bolton. Well, I think the Iranian calculus, 
although you can never be sure with a regime of that nature, is 
that they can intimidate Israel into not acting by threatening 
Israel's civilian population. And I think the supplies and the 
personnel that they have put into the Bekaa Valley for 
Hezbollah since the end of the Israel-Hezbollah war in 2006 is 
very, very frightening. I think their efforts, which are 
continuing, to put at least a modest missile capability in 
Hamas's hands in the Gaza Strip, all make this an 
extraordinarily difficult decision for Israel, which is what it 
is calculated to do. And I think that is why we have to look at 
this from the perspective that there is not much time for 
Israel to make a decision whether it is going to----
    Mr. Weber. Well, it is just delayed annihilation, if you 
will. I mean, they can either go ahead and stop the process now 
or be confronted with it later.
    Ambassador Bolton. Or they can risk the very real 
possibility that we have all miscalculated, and that Iran has 
facilities we don't know about, or that they are working with 
North Korea, or many other things that put them much closer, 
not just to one or two nuclear weapons, but to scores of 
nuclear weapons.
    Mr. Weber. No, I would agree with that. Now let me move 
back to you Mr., is it Dubowitz or Dubowitz?
    Mr. Dubowitz. Dubowitz.
    Mr. Weber. Dubowitz. You said earlier that not killing 
Christians, women, and children should not be the framework for 
concessions in your prepared remarks. Would you reiterate that?
    Mr. Dubowitz. Well, what I said is that if Mr. Rouhani and 
this regime would actually demonstrate their moderation, they 
should stop killing Syrian women and children. But we shouldn't 
reward them for that.
    Mr. Weber. So you are not saying that we are negotiating 
with that right now.
    Mr. Dubowitz. No, we are not negotiating with that right 
now. What I am suggesting is that we try to view Mr. Rouhani 
through the prism of the nuclear file all the time. And I think 
what we try to do in this hearing, given the nexus, is to view 
him through the prism of Syria, where Mr. Rouhani and this 
regime are complicit in the slaughter of tens of thousands of 
Syrians, including women and children. And that should give us 
pause when we sit down with this man.
    Mr. Weber. Oh, absolutely. And that is a great point. I 
appreciate you making it. Madam Chair, I yield back.
    Ms. Ros-Lehtinen. Thank you, sir. My Florida colleague, Ms. 
Frankel.
    Ms. Frankel. Thank you, Madam Chair. Thank you all for your 
service. To me, this is an example of very smart, committed 
people with very different opinions on things. And I just 
wanted to say as an aside that I am personally happy that our 
Secretary of State is trying for peace in the Middle East. And 
I hope, and I expect that he will not lose focus on Iran and 
Syria and the rest of the chaos.
    Mr. Bolton, I think I heard you say that you do not 
believe, as to Iran, that sanctions are working. So I want to 
just ask you specifically are you suggesting a military 
intervention to stop a nuclear power? And let me ask my other 
question. And then, I think, Mr. Dubowitz, I think I heard you 
say that you think we should have more sanctions. But the 
sanctions should just be related to Iran trying to obtain 
nuclear power, but should not be related to its action in 
Syria. I think you said that. No, you didn't say that. Well, 
maybe you could explain that. Let's start with those two 
questions, and then we will go from there.
    Ambassador Bolton. There is simply no evidence that the 
sanctions have had any impact on Iran's nuclear weapons 
program. And given that with the amount of uranium they have 
enriched to reactor grade already, if they were racing to 
create nuclear weapons, they could do it within about 4 months. 
So the notion that continuing to ratchet up the sanctions at 
some point will prevent them from getting nuclear weapons 
simply misses the reality. I think, and I want to say this very 
carefully, objectively speaking, focusing on sanctions almost 
guarantees that Iran will get nuclear weapons because they are 
that close.
    I do believe that the only option is a preemptive military 
strike against Iran's nuclear program. I have believed that for 
quite some number of years. And I know this is a very, very 
unattractive option. But it is a far worse option to 
contemplate Iran with nuclear weapons, not only because of what 
that regime could do with those weapons, but because it doesn't 
stop with Iran. As Secretary of State Clinton said over a year 
ago, if Iran gets nuclear weapons, so will Saudi Arabia, so 
will Egypt, so will Turkey, so will others.
    Ms. Frankel. Mr. Bolton, can I just ask the other two 
gentlemen to comment on that? And give me your opinion of a 
scenario of what would happen if there was a military 
intervention?
    Mr. Dubowitz. I think there is another scenario, which is 
not necessarily to launch a military strike, but actually to 
enhance the credibility that we were serious about using the 
military option if all other options were exhausted. I mean, I 
think one of the fundamental problems of our Iran policy has 
been that the Supreme Leader does not believe the United 
States, and I don't think even believes Israel that we are 
serious about using military force to destroy his nuclear 
facilities. I think if he thought so and actually believed 
that, we would have a much better chance of finding a peaceful 
resolution to this problem at the negotiating table through a 
combination of economic pressure and a credible military 
threat. We may not actually have to launch those military 
strikes in order to get that deal, but we have got to enhance 
the credibility of the threat.
    Ms. Frankel. How is that done?
    Mr. Dubowitz. It is done through the rhetoric of the 
President, it is done through the positioning of military 
assets, it is done through selective leaks, it is done through 
arming our allies, it is done through a variety of ways that 
signals to the Iranians that this President is serious about 
using military force to stop a critical nuclear capability, not 
just a nuclear weapon.
    Ms. Frankel. Dr. Brumberg?
    Mr. Brumberg. Well, I have to admit I am not an expert on 
these strategic matters. I have spent, however, a lot of time 
sitting with the experts here in Washington, and, I might add, 
in Israel, talking about this very subject. And I have not run 
into serious people who do serious work on this question who 
would argue that using force is an obvious or inevitably 
successful strategy. In fact, quite the contrary. I hear it 
over and over again that it will be a boomerang. Why? Because a 
serious military strike is not something that you have 
overnight and disappear. It takes weeks. You have to make sure 
the Iranians cannot retaliate.
    So when you talk about a strike, understand what we are 
talking about. We are talking about going to war. Now, that is 
what I was saying before. I am not advocating going to war. But 
I think the discussion just gets around what the real options 
are. We have to stand up and say if we want war, then make the 
argument. It is no point in threatening war unless you are 
ready to go to war. And from what I can tell, again, working 
with my Israeli friends, the debate in Israel is rich and 
complex. And the military people there are not convinced that 
the military strike is the obvious way to go. And moreover, 
they don't necessarily believe that it is possible for them to 
do it without the U.S.'s involvement in a major sustained set 
of strikes lasting weeks, if not longer.
    So if this is the solution, and we think at the end of the 
day we will resolve this, with all the costs to the region, and 
the costs to the hopes of reform in Iran, then let's make that 
argument. But if we don't really want that outcome, then let's 
talk about the real possibilities. And I think that often the 
conversation doesn't get down to the nitty gritty. And while I 
obviously disagree with Ambassador Bolton in some respects, I 
respect his readiness to at least articulate what he thinks the 
ultimate real option is, which is war.
    And if that is the way we want to go, then let's make the 
argument. But I don't think it is the obvious solution. And I 
think that threatening war when you know the consequences are 
going to be very bad isn't an especially good idea.
    Mr. Dubowitz. Remembering that this is an Iran-Syria nexus 
hearing, remember there are Iranian assets in Syria as well. I 
mean, the Revolutionary Guard assets could force assets in 
Syria. The Israelis have reportedly launched four air strikes 
against assets in Syria, Hezbollah assets in Syria. They have 
penetrated Syrian air defenses. There has been no blowback, no 
consequences. They have lost no planes, no pilots. It does 
suggest that the U.S. has other strike options that may not 
entail blowing up Iran's nuclear facilities, but, in fact, may 
entail going after Iranian assets in Syria selectively to once 
again send a message of resolve. I don't think it is an either/
or between, you know, appeasement and a full-scale military 
intervention with 150,000 soldiers climbing through the 
mountains of Iran. There are other options as we look at this 
trajectory.
    Ms. Ros-Lehtinen. Thank you. And my other Florida 
colleague, Mr. DeSantis.
    Mr. DeSantis. Thank you, Madam Chairwoman. You know, I 
appreciate the testimony. I was reading in the paper when they 
had the Iranian election, and Wall Street Journal, Washington 
Post, I mean, all of them, moderate wins Iranian election. And 
we even have a letter now that is circulating amongst my 
colleagues in the House, I think there is over 130 of them, who 
have said, hey, this guy's a moderate, this is a chance to get 
some negotiations. And I just find that to be incredibly naive. 
To describe him as a moderate in a way that we would kind of 
think of it here is very misleading.
    So Ambassador Bolton, what is your sense on Hasan Rouhani 
and this idea that he is some kind of a moderate? Do you agree 
with that? And do you think that it is worth negotiating with 
this regime?
    Ambassador Bolton. No, I don't think it is worth 
negotiating. We have negotiated for 10 years. And you know, at 
some point you can say how much longer do we have to wait? The 
criticism of Ahmadinejad when he was President by the so-called 
moderates had nothing to do with his objective to get a 
deliverable nuclear weapons capability. It was that he talked 
about wiping Israel off the face of the Earth, that he boasted 
about the nuclear weapons program, that he went on public 
relations tours of the centrifuge facility at Natanz, that he 
kept talking about it.
    And the argument by leaders like Rafsanjani and others was 
stop talking about it. You are getting the West agitated. They 
are paying attention to it. And I think Rouhani is perfectly 
positioned to play exactly that kind of strategy to allay the 
fears, to have negotiations, to make meaningless concessions, 
all the while Iran's nuclear infrastructure grows broader and 
deeper. And just one piece that we haven't talked about today, 
the IAEA, in its last quarterly report, estimates that the 
heavy water production facility and the heavy water reactor at 
Iraq will be on line next year. And that is an even more 
efficient way to produce plutonium for the plutonium route to 
nuclear weapons. There is no power generating capacity in Iraq 
to use the output of the heavy water reactor. It can only have 
a weapons purpose. And it is going right along.
    Mr. DeSantis. With respect to Iran's pursuit of nuclear 
weapons and Israel's response, you know, you talked about an 
Israeli strike. I think in your testimony you meant a strike on 
the actual reactors. One of the gentlemen up here mentioned 
some of their other assets in the region. So Ambassador Bolton, 
do you think a strike against some of these other assets in the 
region, but not necessarily a strike on the Iraqi--or on the 
Iranian nuclear facilities itself would be effective or 
sufficient?
    Ambassador Bolton. No, I don't. I think what any strike has 
to do is break Iran's control over the nuclear fuel cycle at 
certain key points. You don't have to destroy all their 
facilities. But at a minimum, I think you need to prevent their 
capacity to enrich uranium and the even more vulnerable link, 
their capacity to convert uranium from a solid into a gas. This 
is the Isfahan conversion facility. We know where it is. It is 
all above ground. We don't think there is an alternative. The 
risk of not acting, as every day goes by, is simply that Iran 
increases the potential to have redundant facilities that we 
don't know about. And for all this discussion that we have had 
here today and we have in the general public debate, we ought 
to be a little bit more humble about our intelligence about 
what is actually going on in Iran.
    We have had problems overestimating our accuracy before. 
And that is why the notion that we have an essentially 
unlimited time to negotiate is very, very dangerous.
    Mr. DeSantis. And I know this is about the Syrian-Iran 
nexus, but with respect to the Israeli-Palestinian issue I 
think it is relevant because it kind of feeds into this idea 
that we can get further in negotiations and we may have to. I 
know Israel has agreed to give up 100 or so Palestinian 
prisoners, terrorists. And it is frustrating to me because I 
think that sends the wrong signal to the Palestinians, almost a 
reward in some ways. I don't think that that is going to lead 
to any type of lasting settlement. But what are your thoughts 
on what is going on with that situation?
    Ambassador Bolton. No, I think the release of the prisoners 
was clearly as a result of the pressure of the United States. I 
don't think that will fundamentally change the negotiating 
dynamic. And I think the ultimate outcome is that we are going 
to be left pretty much in the place that we were before. I do 
think to the extent that it reflects an investment of American 
prestige in an effort that is almost certainly doomed to 
failure, it will leave the United States, when that occurs, in 
yet even weaker a position in the region as a whole than we are 
already.
    Mr. DeSantis. I appreciate that. And thank you, Madam 
Chairwoman. I yield back.
    Ms. Ros-Lehtinen. Thank you, sir. Mr. Connolly of Virginia.
    Mr. Connolly. Thank you, Madam Chairwoman. And you may not 
remember that I was once a Senate staffer on the Senate Foreign 
Relations Committee. But in 1981, I staffed the nomination 
hearing for a young person named John Bolton.
    Ms. Ros-Lehtinen. He was young once?
    Mr. Connolly. He was young, he had no gray hair. He still 
had the moustache, though.
    Ambassador Bolton. Much like you.
    Mr. Connolly. That is right. He aged. I don't know what 
happened to me. Well, starting with you, Mr. Ambassador, you 
sound pretty gloomy. You have no faith in the restart of peace 
negotiations undertaken by Secretary Kerry, and you think that 
there is really no alternative but to a preemptive strike to 
take out the nuclear capability that is being developed in 
Iran. Is that correct?
    Ambassador Bolton. Yeah. It is a very, very unattractive 
alternative. But I think you have to look at it this way. If 
the choice were between the world as it is today compared to 
the world after an Israeli strike, we would all prefer the 
world as it is today, of course. But that is not the choice 
that Israel faces or that the United States faces. The choice 
is between the world after an Israeli strike compared to a 
world where Iran has nuclear weapons. And it is in that 
circumstance where that is the decision that the resort to 
preemptive military force, as Israel has twice before done 
against this program, I think is the only other option.
    Mr. Connolly. So the Israelis should, in your view, and we 
should encourage them by extension, I assume, undertake this 
preemptive action. Any kind of timeline?
    Ambassador Bolton. The sooner the better. I mean, look, the 
Israelis unambiguously would prefer that the United States do 
this because they know our capacity is much greater, our 
ability to sustain the operation over a long period of time is 
much greater. And it is true that the United States has said, 
in both the last administration and this one, that all options 
are on the table, but nobody believes that. Nobody believes it 
in Israel and nobody believes it in Iran. That is why the 
spotlight is on Israel. They don't want it on Israel, but that 
is the choice. And I think if they don't act in the very near 
future, then the almost certain outcome is that Iran gets 
nuclear weapons and very, very soon. And if that happens, as I 
said a moment ago, I think at least three other countries in 
the region move quickly to get nuclear weapons themselves.
    Mr. Connolly. What about trying, before you sort of 
undertake a preemptive strike, presumably you have got to do 
some calculus about the consequences. Now, some have posited 
that this is very different from taking out a capacity in Syria 
or the previous taking out of a reactor in Iraq. This is very 
different, and that you are talking about potentially region-
wide, you know, reactions that could be deeply and profoundly 
injurious to the interests of Israel, and by extension, us. So 
how would you address that, Mr. Ambassador, since you have 
called for the preemptive strike?
    Ambassador Bolton. Yeah. Well, I have written, and I will 
try and summarize what I think the Iranian reaction would be. 
But let me say, first, in terms of the reaction in the region, 
the Arab states of the peninsula on the other side of the Gulf 
would welcome the elimination of the Iranian nuclear weapons 
program. They may not say that publicly, but in private, they 
fear Iran with nuclear weapons almost as much as Israel does. I 
think that Iran itself, then, would have some hard decisions 
about how to respond. I do not think that they would close the 
Strait of Hormuz. I do not think they would attack deployed 
American forces in the region or the Arab states on the other 
side of the Gulf because that would bring us in.
    And as I said before, you can never be certain with this 
regime. But I think by process of elimination you conclude the 
most likely Iranian retaliation is to have Hezbollah and Hamas 
attack Israel, which is why prompt American support, if Israel 
does decide to attack, is so important to resupply the planes 
they will undoubtedly lose in large numbers over Iran so that 
they can gain air supremacy over the Bekaa Valley and the Gaza 
Strip to suppress that rocket fire.
    Mr. Connolly. Madam Chairwoman, if you would allow Mr. 
Dubowitz and Dr. Brumberg to simply have the opportunity to 
respond.
    Ms. Ros-Lehtinen. Without objection.
    Mr. Connolly. Thank you.
    Mr. Dubowitz. Congressman, I actually think that there is 
another risk, that the Iranians may not dash to a nuclear 
weapon quickly, prompting a--or at least before that, prompting 
Israel and the United States to have to move quickly. The 
Iranian end game actually may have a middle point. And the 
middle point is to establish critical nuclear capability where 
they are at the point of undetectable nuclear breakout, where 
they can break out without the IAEA and Western intelligence 
knowing about it. And then in doing so, establish an industrial 
size nuclear capacity so they can produce not one weapon, but 
multiple weapons, and then stop. And at that critical point 
where they have the ability to turn a screw and build a nuclear 
weapon, they stop and they say to the international community 
we now have an industrial-sized program with undetectable 
breakout, and here are our demands: Massive sanctions relief, 
recognize our interests in Syria, Afghanistan, Iraq, Bahrain 
and elsewhere, and don't force us to build a bomb. You know, 
the Supreme Leader has this supposed fatwa against a nuclear 
weapon. Well, we don't want a nuclear weapon, so don't force 
our hand. And in doing so have all of the leverage and turn the 
tables on the international community, get massive sanctions 
relief, get the oil flowing, get the economy stabilized, and 
then at some point, because I think it is absolutely in the 
Supreme Leader's DNA, then dash to a weapon with a strong 
economy and without sanctions in place. That may be a potential 
end game that I think we should be very conscious and very wary 
of.
    Mr. Brumberg. Well, if this discussion illustrates 
anything, it is the lack of good alternatives. I mean, I think 
we all recognize, listening to this discussion as we are trying 
to work out a very difficult situation, that many of the 
alternatives are worse than the other. The Israelis themselves, 
from what I know, speaking to the experts, don't believe that 
they have the ordnance to undertake an effective strike by 
themselves. And therefore, there is no such thing as successful 
or effort to be successful on the military front without a 
concerted, extended, protracted bombing campaign supported by 
the U.S.
    And again, there is no guarantee that it will be 
successful. And it may have regional effects that we can't 
imagine and maybe disaster. And that is disastrous. That is why 
the Israelis are so worried, and are not necessarily adamant 
for making the kinds of moves that some are advocating. I might 
also just add one more remark here, and that is when you talk 
about the Iranians looking for capacity, having the capacity, 
what that means. It is a very complex issue. Can we negotiate 
under those circumstances an agreement that we can accept? 
Perhaps not. Perhaps so. We don't really know. This is a matter 
to be addressed through negotiations, unless we simply don't 
want to have negotiations. Then the war option is really the 
only one, and it is not a good one either.
    So I think that all the alternatives are bad. I myself have 
made the argument that we should, at the very least, test the 
opportunity before us. The situation cannot be reduced to one 
man or one position, but is a complex one in which we have a 
serious process of change going on in Iran, and let's not blow 
that up as well.
    Mr. Connolly. Thank you. Thank you, Madam Chairwoman.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly. I hope your cold 
gets better. And Mr. Deutch and I have packed this subcommittee 
with Floridians. So very pleased to yield to Dr. Yoho of 
Florida.
    Mr. Yoho. Thank you, Madam Chair. I appreciate the 
opportunity, and I enjoy you guys and your testimony. What I 
see as our foreign policy is a circle. It is like a tiger 
chasing its tail for the last 25 to 30 years. You know, stop 
Iran from developing a nuclear weapon, sanctions, the threat of 
war, the IAEA inspectors in the hopes that Iran will not 
develop a nuclear war.
    Mr. Bolton, or Ambassador Bolton, in your book, Surrender 
is Not an Option, for over 20 years we and other nations of the 
world have attempted to dissuade Iran from developing a nuclear 
weapon, but yet they get closer, decade by decade, year by 
year, day by day. And we send the IAEA in there, and they get 
hoodwinked, and Iran says we are not doing it, but we know they 
are and they have been. I mean, the proof is in the pudding 
right now.
    What other strategies, other than the sanctions we have 
talked about and the threat of war, would you recommend? And 
this is for all three of you. And what, in your opinion--and I 
know this is crazy, but play along with me here, because the 
last 30 years have been kind of crazy. And this has happened 
before with Pakistan developing a nuclear weapon and then 
India. Said it couldn't be done. And then North Korea and 
China. What would happen if, as Mr. Dubowitz said, the end 
game, if they were allowed--not allowed, but if they developed 
that and then we had a different strategy, thinking outside of 
the box, and say you know what, if you have that, you just 
better be careful how you use it because the rest of the world 
is going to respond. I mean, I know that is--I have not heard 
anybody talk about that. But yet you said your end game is 
getting Iran that close to developing a nuclear weapon. And if 
they get that close, they have the negotiation power. And it 
sounds to me like they are going to get that anyways. So what 
happens if we change the policy and said you know what, if you 
get that, you need to be very, very careful? I would like to 
hear your comments on that.
    Ambassador Bolton. Well, I think the idea that if they get 
nuclear weapons they can be contained and deterred is a 
strategy that is doomed to leave Israel and our Arab friends in 
the region in grave peril forever. And in fact, given Iran's 
support for international terrorism over the years, would lead 
to the potential of them assisting terrorists in exploding a 
nuclear device anywhere on Earth, whether they ever get the 
ballistic missile capability to deliver it that way or not.
    And as I said a moment ago, once that happens, even if I am 
wrong that you cannot contain and deter a nuclear Iran, it 
doesn't stop there. You have got the proliferation to the 
Saudis, to Egypt, to Turkey, and others that takes an already 
very dangerous environment in the Middle East and ratchets it 
up to half a dozen nuclear weapon states in a relatively short 
period of time. And that too is a prescription for disaster.
    So that is why I think it has been so important to focus on 
stopping Iran in the first place. And the idea that there is 
some level that people would allow them to be comfortable with 
but not actually, for example, testing nuclear weapons, I think 
is a mistake because I think the proliferation will occur 
anyway. If you have trouble sleeping some night just read books 
about India's recessed deterrent policy----
    Mr. Yoho. I have.
    Ambassador Bolton [continuing]. In the decades before they 
detonated weapons in 1998. They did have everything but turning 
the last screw, and everybody knew it, and that is why Pakistan 
got nuclear weapons. And that is proliferation at work. That is 
why, as I say, the ultimate conclusion has to be to stop Iran 
in the first instance. And we are very nearly out of time do 
that.
    Mr. Dubowitz. Well, I absolutely agree. I mean, I think 
Iran as a threshold nuclear power would be as dangerous as Iran 
with nuclear weapons, which is why we must ensure that they 
don't get there. And these notions of giving Iran the right to 
enrichment, or having it have domestic enrichment I think are 
fanciful, because ultimately, this is a regime that has shown 
itself willing to rapaciously cheat and deceive. And if it has 
domestic enrichment, it will do so.
    Just to add to your question, sir, I think that there is 
more we can do to show the Supreme Leader that we are serious. 
I mean, if you look at it from his perspective, Iranian 
provocation in Iraq and Afghanistan, around the world, 
including trying to blow up a restaurant in Georgetown, 
Washington, has been met with nothing. No response. Court 
hearings. Prosecutions. Angry words. And even on the sanctions 
front, targeted sanctions, graduated sanctions, focused 
sanctions. We haven't responded in a massive way. On the 
sanctions side, it needs to be massive sanctions leading to 
economic collapse. We should be responding in places like Syria 
not with U.N. Council recommendations or Geneva two peace 
conferences, but with actually killing Iranian IRGC Quds Force 
commanders in Syria. I mean they are there, they are on the 
ground. We should be taking them out. That will send a message 
that we are serious.
    Mr. Yoho. Madam Chair, can the next witness answer that?
    Ms. Ros-Lehtinen. Absolutely, Dr. Yoho.
    Mr. Yoho. Thank you, ma'am.
    Mr. Brumberg. Well, I think you put your finger on the 
question, and that is, is there any level of enrichment that we 
can live with in a negotiated settlement? Now, from the 
perspective of the United States and our European allies, if 
there is no level of enrichment on Iranian soil acceptable, 
there is no basis for an agreement and we should simply stop 
negotiating and consider the options which we have already 
talked about. I am not convinced that this is the basis for a 
negotiation. And I don't think whatever administration was 
sitting in the White House would necessarily agree to that 
premise. Because it only narrows your options and precludes 
negotiations.
    So once again, this is really about ultimately what is the 
end game of a negotiation. What are you prepared to live with? 
And that is a discussion that neither the Iranians nor the 
Americans are very likely or happy to have. We keep dancing 
around it. In some sense, we are making progress here because 
at least we are having that discussion. But that is really the 
ultimate question. And we can have a useful debate about that.
    Mr. Yoho. Thank you.
    Ms. Ros-Lehtinen. Thank you very much. Mr. Messer, you are 
our cleanup batter hitter. Come on, out of the ballpark.
    Mr. Messer. Well, thank you, Madam Chair. I certainly 
appreciate the testimony today, and have learned a lot 
listening. I think in the last couple of questioners, you know, 
often when we go through these conversations, we assume that it 
is a given that Iran cannot, we cannot have a nuclear Iran, and 
yet then don't talk about the consequences of what that really 
means. I think in the last couple of questioners we managed to 
get there. So I will skip through that, the questions I was 
going to ask there, and just say, in my view, I think shared by 
at least two of the three on the panel, there is no world in 
which it is acceptable to have a nuclear Iran. The world would 
be forever changed. And we have to do whatever we can, even the 
most unsavory of options, to make sure that that doesn't 
happen.
    This hearing is about the nexus between Syria and Iran. And 
obviously in the world we live in today, there is an awful lot 
of events happening in Syria. So I would just ask the panelists 
to assess where they see events in Syria today, the stability 
of the Assad regime, and how does this nexus change in a world 
if Assad falls.
    Ambassador Bolton. Well, let me just address one aspect we 
haven't talked a lot about in connection with Syria. And that 
is the effective confluence of interests between Iran and 
Russia in keeping Assad in power. I think that is very 
important for a lot of reasons. And I think that is why you see 
the momentum, the dynamic in the conflict having shifted these 
past several months. Certainly not over yet. We have been up 
and down and all around in Syria over the past 2 years. I don't 
think you can predict at this point even yet what the outcome 
will be. But Russia and Iran have worked effectively to keep 
the Assad regime propped up when it looked like it was about to 
go down. And that is significant I think because of the larger 
regional implications. Russia and China cast three double 
vetoes in the Security Council of U.S. and European proposed 
sanctions. They are going to do whatever they can to keep Assad 
in power, as Iran will.
    And that is one reason why I worry, in the midst of all 
this chaos in the other countries in the region, that the 
Russians see an opportunity, maybe not to get back to where 
they were in Soviet days before the--before Sadat took office 
in Egypt, but they see the potential to expand Russian 
influence in the region that they haven't had in a long time.
    And so that is why this conflict in Syria is so important 
to them. And I think we have missed this in the last 2 years. 
We believed for a long time we could negotiate with Russia to 
ease Assad out of power. It was never going to happen. And I 
think the Obama administration was reluctant to take Iran on in 
the early days of Syria because that would tank whatever 
prospects there were of negotiating with Iran about the nuclear 
weapons program. That is the linkage point right there.
    So I think it is a very, very troubling time from that 
perspective, and that Russia and Iranian cooperation isn't 
ending in Syria. You are going to continue to see it as the 
Russians for reasons of their own, and very mistakenly in my 
view, but as they continue to fly political cover for Iran on 
this issue.
    Mr. Messer. Thanks. The other panelists.
    Mr. Dubowitz. Well, with respect to Syria, I mean again, I 
think the Iranian game there is to establish a different kind 
of critical capability, in that case, to establish what my FDD 
colleague Tony Badran has called Alawistan. So Assad is 
winning. Assad will probably not have control over all of 
Syria. But if he can control a land mass that stretches from 
Latakia in the north to Tartus on the border of Lebanon in the 
south, includes Homs and Damascus, with territorial contiguity 
with Lebanon, which provides a land bridge to Hezbollah, then 
he has Alawistan, he has a land mass, a launching pad for 
Iranian influence in that region. And that is a different kind 
of critical capability than we talked about on the nuclear 
side, which is threshold critical capability.
    I think on the issue of how we deal with this, and this is 
a response to my friend over here, I think we make a big 
mistake when we negotiate with the Iranians in responding to an 
Iranian declaration that something is nonnegotiable by saying, 
okay, it is nonnegotiable, then we will take it off the table. 
So the right to enrichment, domestic enrichment, nonnegotiable, 
we won't have a deal unless we----
    Mr. Messer. Particularly when the result is nonnegotiable.
    Mr. Dubowitz. Well, that is right. And I think that that is 
just a big mistake in negotiating with men who employ 
brinksmanship. Everything is negotiable. And in fact, what we 
need to be doing is what the Iranians are doing, creating facts 
on the ground in the way that they create centrifuges on the 
ground, enrichment stockpiling, and critical territory in 
Syria. We need to be creating our own facts on the ground to 
use as leverage in a negotiation process where we can actually 
come to some peaceful determination.
    Mr. Messer. Okay. Madam Chair, with your permission Dr. 
Brumberg.
    Ms. Ros-Lehtinen. Absolutely. Without objection.
    Mr. Brumberg. I think we all can agree the situation in 
Syria is disastrous on many levels, one of which we have 
already mentioned briefly, and that is it has been the basis 
for an escalation of a sectarian war between the Sunnis and the 
Shiites throughout the region. And that is feeding the jihadist 
movements everywhere, including, of course, now in the Sinai, 
which has become a huge problem. And what is interesting is 
that in Iran, there is a considerable debate about this. 
Because they know the blowback of their so-called success in 
Syria will come to haunt them. This has implications for Iran's 
own security. If Lebanon falls apart, and Hezbollah is 
completely dragged into a sectarian war, Iran's own interests 
will not be defended, and in fact, will be undermined.
    So the Iranians are having an interesting debate about 
this. The incoming President and the people around him are 
surely aware of it. They have talked about it. And they are 
going to have to deal with the unintended consequences of their 
so-called victory in Syria.
    Ms. Ros-Lehtinen. Thank you so much. I thank the witnesses 
for excellent testimony. And I do agree with Ambassador Bolton, 
in an ideal world, peace between Israel and the Palestinians, 
is always a wonderful thing. But meanwhile, we can only have so 
many hours in the day. You have to focus on what is happening. 
We have got Egypt in crisis. We have got Iran close to nuclear 
weapons. We have got bloodshed in Syria. And look what this 
administration is doing. Anyway, with that, the subcommittee is 
adjourned. Thank you gentlemen. Thank you to the audience as 
well.
    [Whereupon, at 4:05 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
